SUPREME COURT OF THE UNITED STATES
No.
X
HAROLD SHURTLEFF and CAMP CONSTITUTION,
PETITIONERS,
V.

CITY OF BOSTON and ROBERT MELVIN, in his official capacity as Commissioner
of the City of Boston Property Management Department,
RESPONDENTS.

X
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,998 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.2(b).
I declare under penalty of perjury of the laws of the United States that the foregoing
statements are true and correct.
Executed this June 21, 2021.

Mathew D. Stayer (Counsel of Record)
Anita L. Stayer
Horatio G. Mihet
Roger K. Gannam
Daniel J. Schmid
LIBERTY COUNSEL
P.O. Box 540774
Orlando, FL 32854
(407) 875-1776
court@LC.org
Counsel for Petitioners

